WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

Kannha Bounchanh

20-6999
v.

Washington State Health Care Auth., et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
□ Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
Wash. State Health Care Auth., Wash. State Dep't of Soc. & Health Servs., Wash. State Attorney General's Office,

Wash. State Human Rights Comm'n, and the named state employees listed on the attached page
□ I am a member of the Bar of the Supreme Court of the United States.
□ I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be ﬁled by a Bar member.
Signature
Date:

March 1, 2021

(Type or print) Name

Peter B. Gonick
□ Mr.

Firm

Digitally signed by Peter B. Gonick
Date: 2021.03.01 10:54:30 -08'00'

Peter B. Gonick

□ Ms.

□ Mrs.

□ Miss

Washington Office of Attorney General

Address

1125 Washington Street SE

City & State
Phone

Olympia WA

360-753-6245

Zip
Email

98504-0100

peter.gonick@atg.wa.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC:

Kannha Bounchanh, kannhabounchanh@hotmail.com

Individual state employees represented by this counsel:
Jean Bui, Dylan Oxford, Andrew Steers, Dorothy Teeter,
Michael Otto-Johnson, George Taylor, Steve Dotson, Kerri Kallay,
Grant Stromsdorfer, Sharon Pecheos, Nicole Rivera, Scott Palafox,
Sue Birch, Megan Atkinson, Robert Bouffard, Jody Costello,
Kendrick Stewart, Shane Riddle, Patricia Lashway, Kevin Quickly,
Myron Toyama, Cheryl Strange, Eileen Sherlock, Leigh J. Swanson,
Stephen Weeks, Pamela Anderson, Sharon Ortiz, Jeremy Page,
Cheryl Strobert, and Idolina Reta

